HHS/OIG, Audit - "Review of Missouri's Determination of Medicaid
Disproportionate Share Hospital Eligibility for State-Owned Institutions for
Mental Diseases," (A-07-06-03086)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Missouri's
Determination of Medicaid Disproportionate Share Hospital Eligibility for
State-Owned Institutions for Mental Diseases," (A-07-06-03086)
December 13, 2007
Complete Text of Report is available in PDF format (850 kb).
Copies can also be obtained by contacting the Office of Public Affairs at
202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether the Missouri
Department of Social Services (the State) correctly determined State-owned
Institutions for Mental Diseases (IMD) to be eligible for Medicaid
disproportionate share hospital (DSH) payments for Federal fiscal years (FFY)
20032005.
The State correctly determined seven State-owned IMDs to be
DSH eligible for FFYs 20032005.  However, the State incorrectly computed the
Medicaid Inpatient Utilization Rates (MIUR) for the IMDs because it did not
comply with Federal regulations concerning the exclusion of inpatient days
related to unallowable age groups and incarcerated individuals.  In addition,
the State included unallowable inpatient days related to accounting errors for
the FFY 20032005 DSH eligibility determination.  The State also lacked
adequate controls concerning the acquisition, review and maintenance of
contemporaneous documentation to support the MIUR calculations.  As a result,
the State could not adequately support its MIUR calculations for State-owned
IMDs.  These errors did not cause the MIUR to fall below the 1-percent
threshold at any of these State-owned IMDs.  However, we are concerned that
the State may in the future overstate the MIURs and, consequently, incorrectly
classify one or more IMDs as DSH eligible.
We recommend that the State (1) comply with Federal regulations
concerning the exclusion of unallowable inpatient days from the MIUR
calculations; and (2) strengthen controls to eliminate accounting errors
and to acquire, review, and maintain contemporaneous documentation to support
the original Medicaid DSH MIUR calculations.  The State neither agreed nor
disagreed with our first recommendation and agreed with our second
recommendation.